  DEPARTMENT OF HOMELAND SECURITY

       Office of Inspector General



                Review of the 

          Immigration and Customs 

                Enforcement’s 

         Compliance Enforcement Unit 





     Office of Inspections and Special Reviews

OIG-05-50                         September 2005
                                                                         Office of Inspector General

                                                                         U.S. Department of Homeland Security
                                                                         Washington, DC 20528




                                          Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared by the OIG as
part of its DHS oversight responsibilities to promote economy, effectiveness, and efficiency within
the department.

This report assesses the strengths and weaknesses of the Bureau of Immigration and Customs
Enforcement’s Compliance Enforcement Unit operations. It is based on interviews with employees
and officials of relevant agencies and institutions, direct observations, and a review of applicable
documents.

The recommendations have been developed to the best knowledge available to the OIG, and have
been discussed in draft with those responsible for implementation. It is our hope that this report will
result in more effective, efficient, and economical operations. We express our appreciation to all of
those who contributed to the preparation of this report.




                                              Richard L. Skinner 

                                              Inspector General 

Contents 



Executive Summary……………………………..…………………………………………….... 3 


Background………………………………………..……………………………………………. ...5 

     Source Systems………………………………………………………………………………. 8 


     CEU Lead Processing..……………………………………………………………………... 11 


     Field Processing of CEU Leads………………………………………………………….…. 14 


Results of the Review....………………………………...………………………………………16 

     Efforts to Identify Visa Violators and Overstays Result in Few Apprehensions……...…….16 


     Significant Number of Leads Remain Unprocessed….………………………….…….….…17 


     Leads Are Not Processed in a Timely Manner...……………..…………………………….. 22 


     CEU Procedures Need Improvement ………...…………………………………………….. 25 


Management Comments and OIG Analysis.…………………………………………….. 30 


Appendices 

  Appendix A:   Compliance Enforcement Unit Workflow .........................................................                      33 

  Appendix B:   Average and Median of Leads Closed by CEU HQ...........................................                             34 

  Appendix C:   Average and Median of Leads Sent to ICE Field Offices ..................................                            35 

  Appendix D:   ICE Memoranda Distribution Matrix .................................................................                 36 

  Appendix E:   Support Systems .................................................................................................   37 

  Appendix F:   Purpose, Scope, and Methodology .....................................................................               40 

  Appendix G:   Management Response to Draft Report .............................................................                   42 

  Appendix H:   Major Contributors to This Report.....................................................................              45 

  Appendix I:   Report Distribution.............................................................................................    46 





                                     Review of the ICE’s Compliance Enforcement Unit

                                                        Page 1
Contents 


Abbreviations
  ADIS       Arrival and Departure Information System

  ASAC       Assistant Special Agent in Charge 

  CBP        Bureau of Customs and Border Protection 

  CEU        Compliance Enforcement Unit       

  CEU HQ     Compliance Enforcement Unit Headquarters 

  DHS        Department of Homeland Security 

  DOS        Department of State 

  DOJ        Department of Justice 

  FTE        Full Time Equivalent 

  FY         Fiscal Year    

  HSA        Homeland Security Act of 2002 

  ICE        Bureau of Immigration and Customs Enforcement 

  INS        Immigration and Naturalization Service 

  NCIC       National Crime Information Center 

  NIIS       Non-Immigrant Information System

  NSEERS     National Security Entry Exit Registration System

  OIG        Office of Inspector General 

  P.L.       Public Law
  POE        Port of Entry
  RAC        Resident Agent in Charge
  ROI        Report of Investigation
  SAC        Special Agent in Charge
  SEVIS      Student and Exchange Visitor Information System
  SEVP       Student and Exchange Visitor Program
  SOP        Standard Operating Procedures
  TECS       Treasury Enforcement Communication System
  US-VISIT   United States Visitor and Immigrant Status Indicator Technology
  VWP        Visa Waiver Program




                                Review of the ICE’s Compliance Enforcement Unit

                                              Page 2
OIG 

Department of Homeland Security
Office of Inspector General

Executive Summary
                          We conducted this review to evaluate the efficiency and effectiveness of the
                          Bureau of Immigration and Customs Enforcement (ICE) Compliance
                          Enforcement Unit (CEU) in identifying, locating, and apprehending aliens
                          who have violated the purpose and terms of their admission into the United
                          States. Based on our review of the number of cases referred to CEU and the
                          procedures and systems used to collect, analyze, and process these referrals,
                          we identified several deficiencies in the CEU process. 1

                          CEU depends on systems that are incomplete. The most ambitious, US
                          VISIT, does not have an established exit control capability at this time. 2
                          These systems produce many “leads” that are incomplete or inaccurate; i.e.,
                          are not actionable. In our test sample of leads closed by CEU HQ, 96 percent
                          of the leads proved to be invalid.

                          The sum of deficiencies in the systems, in CEU’s output, and other factors in
                          the apprehension and removal process result in a minimal impact in reducing
                          the number of overstays in the United States. From January 2004 to January
                          2005, CEU received 301,046 leads from US-VISIT, SEVIS, NSEERS, and the
                          Department of State. CEU processed 142,816 of these leads. CEU closed
                          138,652 because it determined the alien had left the United States, was “in
                          status,” or no address information was available to make an apprehension
                          likely.

                          Of the 142,816 leads, CEU referred the remaining 4,164 to the field. These
                          resulted in 671 apprehensions. Once an apprehension is made, the
                          responsibility to detain, adjudicate, and remove visa violators is transferred to
                          other offices within ICE, including the Office of Detention and Removal and
                          the ICE Office of the Principal Legal Advisor. Additionally, the Executive
                          Office of Immigration Review within the Department of Justice (DOJ)
                          presides over these immigration cases. Studies suggest that very few of the


1
  We evaluated the procedures and systems CEU used as of June 2004. Any changes or enhancements to those
procedures and systems since that time are not reflected in this report unless used to address specific findings and
recommendations.
2
  US-VISIT, SEVIS, and NSEERS are acronyms for different systems used to track various categories of foreign visitor
to the United States. Each system’s full name and its coverage is described later in this report.


                                        Review of the ICE’s Compliance Enforcement Unit
                                                       Page 3
                          671 aliens apprehended will actually be removed unless they also have a
                          criminal history and are detained. 3

                          Nevertheless, we identified business practices that CEU can improve. Of the
                          14,495 US-VISIT, SEVIS, and NSEERS referrals that we examined, CEU had
                          not completed the processing of 7,053 (49 percent) of these leads in a two-
                          month period. This situation exists because CEU is unable to keep pace with
                          the large volume of lead referrals and because not all referral data was
                          actionable.

                          CEU did not process all violator leads that it did complete in a timely manner
                          due to vague performance measures and processing inefficiencies. As a
                          result, violators have a greater chance to avoid apprehension and disappear
                          into the U.S. population because addresses and other locator information for
                          aliens can be perishable.

                          Finally, two procedural issues hinder CEU’s ability to adequately document
                          and consistently process violator leads: (1) The need to establish the basis for
                          closing over half of the leads in our test sample; and, (2) inefficiencies in
                          distributing policies to ICE field offices. The absence of effective policy
                          dissemination is illustrated by the need for investigative guidelines for the ICE
                          field offices on how to document the various actions taken on CEU cases.

                          We are recommending that CEU:

                              • 	 Ensure that data quality issues are addressed, in conjunction with
                                  officials from the various lead referral systems, and that validity
                                  checks are performed to increase the number of “actionable” leads
                                  referred to CEU.

                              • 	 Assess the CEU workflow process, establish and closely monitor
                                  processing performance measures to ensure that CEU staff is working
                                  efficiently, and determine when staffing adjustments are needed to
                                  ensure timely processing of all violator leads.

                              • 	 Ensure that adequate justification exists for lead closure and that this
                                  justification is documented.


3
 INS only removed 13 percent of nondetained aliens under final orders. Office of the Inspector General, Department of
Justice, “The Immigration and Naturalization Service’s Removal of Aliens Issued Final Orders,” Rep. No. I-2003-004,
12 February 2003.


                                        Review of the ICE’s Compliance Enforcement Unit

                                                       Page 4
                               • 	 Redistribute policy and guidance documents to ICE field offices and
                                   consolidate current policy memoranda into a set of Standard Operating
                                   Procedures (SOPs) for distribution to all ICE field offices; and,
                                   establish an ICE-wide resource for access to the CEU SOPs, as well as
                                   other current information regarding CEU activities.


Background
                          The Immigration and Naturalization Service (INS) estimated that there were
                          seven million illegal aliens living in the United States in January 2000 and
                          that this estimate would grow by 350,000 a year. 4 At the same time, the
                          United States Census Bureau estimated that there were eight million illegal
                          aliens living in the United States and estimated a growth rate of half a million
                          a year. Using these 2000 estimates and projections, the illegal-alien
                          population in 2004 would approximate nine to ten million. Another study,
                          based on the March 2004 Current Population Survey, estimated an
                          undocumented population of 10.3 million in March 2004 and nearly 11
                          million as of March 2005. 5

                          Undocumented aliens customarily are divided into two categories: those who
                          enter without inspection, usually by clandestine entry; and those who are
                          permitted entry based on a visa or other legal basis and then violate the terms
                          of their permission, called “overstays.” Estimates of the number of overstays
                          vary from 33 percent 6 to 50 percent 7 of the total undocumented alien
                          population. Applying the smaller percentage (33 percent) to the most current
                          undocumented alien population estimate (11 million) suggests that there may
                          be over 3.6 million overstays in the United States today.

                          On November 25, 2002, the Homeland Security Act of 2002 (HSA) was
                          signed into law, creating DHS. 8 Effective March 1, 2003, the functions of
                          INS were transferred to DHS. With the establishment of DHS, the functions
                          and jurisdictions of several border and security agencies were merged into the

4
   Office of Policy and Planning, U.S. Immigration and Naturalization Service, “Estimates of the Unauthorized 

Immigration Population Residing in the United States: 1990 to 2000,” 6 (January 2003) 

5
   Jeffrey S. Passel, “Estimates of the Size and Characteristics of the Undocumented Population,” 1, Pew Hispanic Center 

(March. 21, 2005). 

6
   “Estimates of the Unauthorized Immigration Population Residing in the United States: 1990 to 2000,” supra note 1,

at 6 (January 2003). 

7
  “Foreign Visitors Who Violate the Terms of their Visas by Remaining in the United States Indefinitely,” Hearing

Before the Subcommittee on Immigration and Claims of the House Committee on the Judiciary, 104th Cong., 1st Session, 

Serial No. 2, 21 (February 24, 1995) (testimony of Executive Associate Commissioner James A. Puleo). 

8
   P.L. 107-296.



                                         Review of the ICE’s Compliance Enforcement Unit

                                                         Page 5
                         Border and Transportation Security (BTS) Directorate within DHS. ICE is the
                         investigative arm of BTS.

                         In an effort to reduce the number of illegal aliens residing in the United States
                         who had violated the terms of certain types of visas, ICE established the CEU
                         in June 2003. Primarily the National Security Entry Exit Registration System
                         (NSEERS), the Student and Exchange Visitor Information System (SEVIS),
                         and the United States Visitor and Immigrant Status Indicator Technology (US
                         VISIT) identify visa violators. These three systems are designed to track a
                         specific segment of the non-immigrant population and provide CEU with
                         information concerning visa overstays. Additionally, CEU supports
                         enforcement actions necessary as a result of visa revocation actions taken by
                         the Department of State (DOS). Between early January 2004 and early
                         January 2005, CEU HQ received over 300,000 violator leads from these
                         programs.

                         The CEU Headquarters (CEU HQ) Office is the interface between program
                         offices (source systems) that identify potential visa violators and ICE field
                         agents who attempt to locate and apprehend those whom CEU determined
                         have violated the terms of their stay in the United States. 9 There are 27 ICE
                         Special Agent in Charge (SAC) offices located nationwide, many of which
                         have sub-offices (Resident Agent in Charge (RAC) offices), which are tasked
                         to investigate leads forwarded to them by CEU HQ.

                         A substantial part of CEU’s work is to check various governmental and public
                         (support systems) databases to determine if potential violators have departed
                         the United States; have changed, or are in the process of changing, their
                         immigration status; have reestablished program compliance; or can otherwise
                         be accounted for (in custody or removal proceedings).10 CEU HQ closes as
                         many cases as possible based on information in the support systems. While
                         performing these checks, CEU also collects information that is useful to ICE
                         field agents in locating the violator should the lead be forwarded to the field
                         for investigation. 11 In short, much of the work CEU HQ performs depends on
                         the accessibility and reliability of data in both source and support data
                         systems.



9
  Source systems refer potential visa violator leads to CEU. US-VISIT, NSEERS, SEVIS are source systems. Visa 

revocation and biometric referrals are also considered source systems. 

10
   See Appendix E for a description of relevant support systems. 

11
   This includes information such as visa numbers, driver’s license numbers, and addresses. 



                                       Review of the ICE’s Compliance Enforcement Unit

                                                      Page 6
                           CEU HQ has 11 permanent and 7 detailed staff members and is managed by a
                           CEU Chief. Key to CEU operations is the support provided by a contractor.
                           To expedite the contracting process, ICE used an existing Blanket Purchase
                           Agreement to secure the contractor’s services. The contract between ICE and
                           the contractor is a fixed labor rate contract with a performance end date of
                           September 30, 2005. There are 26 contract personnel assigned to CEU HQ
                           and, with the exception of one computer programmer and one contractor
                           supervisor, all are research analysts. Under the contract, the contractor
                           conducts records checks to determine if aliens are in violation of their
                           immigration status and, if they are in the United States, uses the visa violator
                           information to generate investigative leads for ICE field offices.

                           CEU HQ uses Leadtrac, a software program developed by the contractor, to
                           collect, catalog, process, and track visa violator data. Leadtrac imports data in
                           a Microsoft Excel format. Leadtrac serves as an interface between data
                           provided from the various source systems and data ultimately inputted into the
                           Treasury Enforcement Communication System (TECS) to transmit leads to
                           the field for investigation.

                           In Fiscal Year (FY) 2004, CEU was authorized 51 full-time equivalent (FTE)
                           positions. Sixteen positions were assigned to CEU HQ and 35 were
                           distributed among 22 ICE field offices. A CEU HQ official said that not all
                           ICE field offices have designated CEU agents, but that those field offices still
                           investigate CEU cases with existing resources. It is the goal of CEU to have
                           at least one CEU agent assigned to each ICE field office. Both CEU HQ and
                           ICE field office management officials agreed that there are more than 51
                           agents working CEU cases, although we were unable to confirm this at the
                           time we performed our field visits. 12

                           CEU has been authorized 130 agents in FY 2005 but has been unable to hire
                           authorized personnel due to a hiring freeze. Additionally, CEU has requested
                           funding for 79 FTEs to process SEVIS cases. Funding for these 79 FTEs will
                           come from recently imposed SEVIS (student and school) fees.



12
   Although TECS can be used to track an ICE agent’s case hours, TECS was not used to transmit CEU cases to the field
until April 2004. When we performed our field visits, only one of our test sample periods encompassed cases
transmitted to the field using TECS. Therefore, ICE field office personnel could only provide us with estimated CEU
work hours. Additionally, TECS was new to ICE personnel who were not from the legacy U.S. Customs Service.
Therefore, at the time of our field visits, many ICE agents were still learning how to use TECS. Finally, ICE field agents
were not consistently tracking their work hours by individual CEU case but rather by type, such as NSEERS, SEVIS, or
US-VISIT or other general categories.


                                         Review of the ICE’s Compliance Enforcement Unit

                                                         Page 7
                          Source Systems

                               Student and Exchange Visitor Information System (SEVIS)

                          In 1996, Congress directed INS to develop an electronic system to collect
                          information on foreign students and the schools that they attend. 13 In October
                          2001, U.S. authorities discovered that several of the September 11, 2001,
                          terrorists had entered the United States on student visas. Thereafter, Congress
                          directed the INS to fully implement SEVIS by January 1, 2003.

                          SEVIS is an automated, web-based system used to maintain information on
                          international students and exchange visitors in the United States and to
                          identify foreign students and exchange visitors who have violated the terms of
                          their visas. SEVIS is managed by the Student and Exchange Visitor Program
                          (SEVP) office, part of ICE. SEVP receives leads on SEVIS violators from a
                          variety of sources, such as participating U.S. educational institutions.

                          Participating educational institutions enter and update SEVIS records via
                          internet access. Currently, more than 7,300 U.S. schools and 1,400 exchange
                          visitor programs are registered in SEVIS. More than 770,000 student and
                          exchange visitors (F-1, M-1, and J-1 visa categories) were registered in
                          SEVIS as of July 2004. 14 SEVP relies on schools to put forth a “good faith
                          effort” when entering student data into SEVIS, especially student termination
                          notifications. These institutions must be certified for SEVIS compliance
                          every two years.

                          Foreign students can violate immigration status by failing to enroll in the
                          participating institution or not maintaining a sufficient academic course
                          load. 15 U.S. schools and exchange visitors program sponsors are required to
                          notify the SEVP office about foreign students or exchange visitors who do not
                          comply with requirements; such as maintaining a full course load. Those
                          students’ or exchange visitors’ records should be terminated by school or
                          program officials in SEVIS. Foreign students have five months to apply for
                          reinstatement after violating SEVP regulations. Students are considered
                          terminated in SEVIS and subject to arrest and removal until officially

13
   P.L. 104-208; U.S. Code, Title 8, Section 1221 note. 

14
   Within these categories, F-1 visas represent academic students, M-1 visas represent vocational students, and J-1 visas

represent exchange visitor students. SEVIS also maintains records on dependents who accompany a primary SEVIS 

participant into the United States. According to a SEVP official, over 120,000 such dependents are registered in SEVIS. 

Each SEVIS dependent’s record is "linked" to the primary SEVIS participant’s record and if the primary SEVIS 

participant is terminated, all of the dependents’ records are automatically terminated. 

15
   Code of Federal Regulations, Title 8, Section 214.2(f). 



                                         Review of the ICE’s Compliance Enforcement Unit

                                                        Page 8
                             reinstated. The SEVP office refers an average of 500 termination leads per
                             week to CEU in 2004.

                                 National Security Entry/Exit Registration System (NSEERS)

                             Initiated September 11, 2002, by the Department of Justice (DOJ), NSEERS is
                             an entry-exit system for certain temporary foreign visitors (non-immigrant
                             aliens). Visitors admitted under certain types of visas and from specific
                             countries were required to register, be fingerprinted through NSEERS, and
                             provide DOJ with detailed information relating to the visitors’ background
                             and purposes of their visits. Visitors staying in the United States for more
                             than 30 days were initially required to re-register every 30 days, while visitors
                             who remained in the United States for more than one year were required to re
                             register on a yearly basis. Since most of the visitors registered in NSEERS
                             are students, on business travel, or visiting relatives in the United States, the
                             re-registration process was developed to verify locations, activities, and
                             confirm departures.

                             When DHS was created, NSEERS was transferred from DOJ to DHS and
                             placed within ICE. In December 2003, NSEERS 30-day and annual re
                             registration requirements ceased. Individuals registered in NSEERS are now
                             only required to appear for re-registration when deemed necessary by DHS.
                             Aliens who fail to register their departure with NSEERS or fail to comply
                             with DHS re-registration requests are referred to CEU. NSEERS referred an
                             average of 358 leads per week to CEU in 2004.

                                 U.S. Visitor and Immigrant Status Indication Technology (US-VISIT)

                             US-VISIT is a result of the Immigration and Naturalization Service Data
                             Management Improvement Act of 2000. The system is an automated entry-
                             exit system intended to record the arrival and departure of certain temporary
                             foreign visitors crossing U.S. borders. 16 US-VISIT enrollment requires
                             foreign visitors to have both index fingers scanned and a digital photograph
                             taken to verify identity. The exit feature of US-VISIT is still being piloted at
                             only select ports of entry (POE), making it difficult to track visitor departures.
                             Those who do not register their departure with US-VISIT are deemed
                             unconfirmed overstays. US-VISIT referred 2,405 unconfirmed overstay
                             records per week to CEU in 2004.



16
     P.L. 106-215, Section 110; U.S. Code, Title 8, Section 1365.


                                           Review of the ICE’s Compliance Enforcement Unit

                                                           Page 9
                               Biometric Referrals

                          US-VISIT also generates leads termed biometric referrals. Biometric referrals
                          typically originate from warrants created by local law enforcement agencies,
                          which are monitored by ICE through the National Crime Information Center
                          (NCIC). 17 NCIC attempts to match the fingerprints of aliens who are wanted
                          by law enforcement officials or have committed crimes with those who have
                          already entered the United States. If a match is confirmed between NCIC and
                          US-VISIT, a biometric referral lead is generated and processed by CEU.
                          When the lead is sent to an ICE field office for investigation, ICE field agents
                          can either pass the information to local law enforcement agencies or they can
                          attempt to locate and apprehend the individual. Between January 23 and July
                          20, 2004, CEU received a total of 68 biometric referrals.

                               Visa Revocations

                          Another source of violator leads is visa revocations from DOS. Unlike
                          NSEERS, SEVIS, and US-VISIT (including biometric referrals), visa
                          revocation leads derive from an agency external to DHS. DOS issues visas at
                          consular posts abroad to allow nonimmigrants to travel to the United States
                          for a specific purpose and for a specified amount of time. After the issuance
                          of a visa to an alien, DOS may at any time revoke the visa for reasons such as
                          prior U.S. immigration orders for exclusion, deportation, or voluntary
                          departure that were entered against the alien, or criminal conviction for an
                          offense involving moral turpitude. 18

                          Until recently, a lawfully admitted alien in possession of a revoked visa was
                          not necessarily in violation of immigration law. An alien with a revoked visa
                          could remain lawfully in the United States if the visa was valid at the time of
                          admission. CEU processed visa revocation leads for ICE field agents to
                          investigate to determine whether the subject aliens had violated any
                          immigration laws. With the passage of the National Intelligence Reform Act
                          of 2004, in December 2004, an alien with a revoked nonimmigrant visa is
                          illegally present in the United States. 19 An alien with a revoked visa is now
                          subject to removal whether the visa was revoked before, on, or after the
                          effective date of the law.



17
   See Appendix E for a description of support systems. 

18
   U.S. Code, Title 8, Section 1182; Immigration and Nationality Act, Section 212.

19
   P.L. 108-458, Section 5304; U.S. Code, Title 8, Section 1227. 



                                         Review of the ICE’s Compliance Enforcement Unit

                                                        Page 10
                           DOS notifies DHS when it revokes a visa. Upon revocation, a DOS consular
                           officer completes and forwards a Certificate of Revocation, including a
                           statement of the reasons for revocation, to CEU. 20 Between December 8,
                           2003, and July 6, 2004, DOS referred a total of 344 visa revocation leads to
                           CEU. Of these 344 leads, 207 (60.2 percent) derived from visas revoked
                           generally for “National Security” reasons. Of the 207 leads, 162 were for
                           visas revoked on “Security and Related Grounds”, 28 were for visas revoked
                           for connections to terrorist activities, and 17 were for visas revoked for
                           nonspecified "National Security" reasons. 21 Conversely, 126 of the 344 leads
                           (36.6 percent) were for visas revoked for “Non-National Security” reasons,
                           such as misrepresentation of facts on immigration applications. 22 Eleven of
                           the 344 leads were revoked for unspecified "Visa Revocation" reasons.

                           CEU Lead Processing

                           SEVIS, NSEERS, and US-VISIT program offices electronically provide
                           potential visa violator leads to CEU on a weekly basis. 23 These leads are
                           provided in a Microsoft Excel format that CEU HQ imports into the Leadtrac
                           system. Visa revocations and biometric referral leads are provided to CEU as
                           those cases are identified by the DOS and the US-VISIT program office
                           respectively. Visa revocation and biometric referral information is manually
                           entered into Microsoft Excel by CEU personnel and then imported into
                           Leadtrac in the same manner as leads from the other three source systems.
                           From these five sources, CEU receives an average of 5,789 leads on a weekly
                           basis. At this point, CEU requests only the necessary information from source
                           systems for Leadtrac to:

                               • 	 Detect and eliminate duplicate records from within a system or 

                                   duplicate information on the same individual across systems; 


                               • 	 Ensure the import process was successful by matching the number of
                                   records in the Microsoft Excel file with the number of records
                                   imported; and




20
   Code of Federal Regulations, Title 22, Sections 41.121 and 41.122. 

21
   U.S. Code, Title 8, Section 1182; Immigration and Nationality Act, Sections 212 (a)(3) and 212 (a)(3)(B). 

22
   U.S. Code, Title 8, Section 1182; Immigration and Nationality Act, Sections 212(a)(6)(C). 

23
   Refer to Appendix A for a workflow diagram.



                                         Review of the ICE’s Compliance Enforcement Unit

                                                        Page 11
                               • 	 Prioritize the files based on programmed criteria established by
                                   CEU. 24

                          Once leads are imported into Leadtrac, they are designated as either Priority
                          or Non-Priority. Priority leads consist of those aliens from countries of
                          national security concern and other designated priority criteria, while Non-
                          Priority includes all other generated leads. 25

                          Leads are then checked by contract analysts against support systems to
                          determine if the lead is valid and viable. Valid leads are those confirmed by
                          CEU HQ during the workflow process to have violated the condition of their
                          stay in the United States, and for which there is no information available to
                          determine if the violator has (1) departed the United States; (2) has changed,
                          or is in the process of changing, immigration status; (3) has reestablished
                          program compliance; (4) is in custody or proceedings; or, (5) has otherwise
                          been accounted for. Viable leads are those for which there is adequate
                          information to attempt to locate the violator, such as a specific address,
                          school, or other contact information available from the various source and
                          support systems. Contract analysts perform these checks and CEU staff
                          review the analysts’ work and determine the appropriate course of action.

                          In late April 2004, the SEVP office and CEU instituted an additional review to
                          validate leads derived from SEVIS. SEVP officials wanted to ensure accurate
                          analysis and thorough investigation of leads were being performed so that
                          foreign students, who were paying school tuition and SEVIS fees, were not
                          wrongly subjected to unnecessary investigation, detention, or deportation
                          based on incomplete or faulty data in SEVIS. This review was also designed
                          to conserve CEU field investigative resources by resolving as many SEVIS
                          leads as possible before forwarding them to the field for investigation. 26 The
                          SEVP review process takes place after the contract analysts process the
                          SEVIS violator leads.

                          If CEU determines that the leads are not valid or not viable, they are closed.
                          If CEU determines that the leads are valid and viable, they are first entered

24
   For example, of the numerous fields contained in SEVIS, NSEERS and US-VISIT databases, only 29, 30, and 15

fields respectively are sent to CEU to be imported into Leadtrac. These fields include information such as name, birth 

date, country of birth, country of citizenship, gender, date of entry, class of admission, and travel document numbers. 

25
   Special interest countries include Afghanistan, Algeria, Bahrain, Bangladesh, Egypt, Eritrea, Indonesia, Iran, Iraq, 

Jordon, Kuwait, Libya, Lebanon, Morocco, North Korea, Oman, Pakistan, Qatar, Somalia, Saudi Arabia, Sudan, Syria, 

Tunisia, United Arab Emirates, Yemen, and other countries based on national security concerns. 

26
   Although the SEVP office records the number of cases resolved by SEVP, we did not evaluate these cases to determine 

the basis for SEVP resolution. 



                                         Review of the ICE’s Compliance Enforcement Unit

                                                        Page 12
                           into the National Automated Immigration Lookout System (NAILS) for the
                           purpose of alerting U.S. immigration officers at U.S. POEs, for example, of
                           immigration violators who may attempt to enter the United States while the
                           lead is being investigated. 27 Afterwards, these leads, along with the
                           investigative research performed by CEU HQ, are transmitted via TECS to the
                           appropriate ICE field office for investigation. Using TECS allows CEU HQ
                           and ICE field office personnel to monitor case progress. 28 Leads are
                           transmitted to ICE field offices with one of three priority designations:
                           Urgent, Immediate, and Priority. 29

                           Once assigned to an ICE field office, the SAC assigns the lead to the Assistant
                           Special Agent in Charge (ASAC) who forwards the lead to a designated group
                           supervisor for action. 30 The supervisor assigns the lead to a case agent for
                           investigation. The process of opening a CEU case in TECS requires the
                           investigation to be acknowledged and an initial status report, termed a Report
                           of Investigation (ROI), to be filed within a specified amount of time
                           depending on the designated priority level. Thereafter, the case agent submits
                           a status report to the supervisor on each open CEU case every 30 days, or as
                           otherwise directed, in TECS. Field investigations result in one of the
                           following:

                               1. 	 The violator is located and arrested.

                               2. 	 The violator is located but found to be in compliance. Due to delays in
                                    updating source or support data systems, as well as the time to process
                                    cases to the field, there are occasions when documents provided by the
                                    alien and verified by appropriate officials reveal that an alien has re
                                    established program compliance.

27
   NAILS is a database containing past immigration law violators who may be inadmissible to the United States and is
checked during primary border inspections. SEVIS is a secondary border inspection system that may not always be
checked by U.S. Customs and Border Protection Inspectors. Therefore, to better ensure that student or exchange visitors
are properly screened before being admitted into the United States, CEU enters SEVIS leads directly into NAILS using
SEVIS lead data that was imported into Leadtrac.
28
   Another advantage to using TECS is the “call up” feature. A “call up” is essentially an electronic notification or
reminder that some action is required on a case. For example, a “call-up” will be initiated if ICE field office personnel
do not acknowledge receipt of a case within a specified timeframe or if a status report is due on an open case. This
notification is transmitted to appropriate ICE field office management officials and CEU HQ officials. Although CEU
HQ officials said that performance measures have not yet been established, TECS does provide a means for CEU HQ or
ICE field office management personnel to monitor agent performance and establish office performance measures.
29
   Leads are prioritized as: Urgent – Action should be taken without delay, Immediate – Action should commence
within 24 hours of receipt, and Priority – Action should commence within seven days of receipt. Of the 128 leads sent
to the field in our test sample, only seven leads were transmitted to the ICE field offices as either Immediate or Urgent.
30
   ICE RAC office procedures may differ slightly.


                                          Review of the ICE’s Compliance Enforcement Unit

                                                         Page 13
                                3. 	 The violator is located and status is adjusted to achieve compliance.
                                     Generally, if compliance can be achieved, the violator is directed to
                                     take the necessary action to do so. 31

                                4. 	 The violator is not located but departure from the United State is
                                     verified through contacts made during the investigation or subsequent
                                     source or support data system checks.

                                5. 	 The violator is not located but leads exist within another ICE field
                                     office’s area of responsibility. This normally results in the lead being
                                     returned to CEU HQ for reassignment to another ICE field office.

                                6. 	 An ICE case agent determines that all leads have been exhausted.
                                     Procedures vary between ICE field offices, but generally, initial leads
                                     are pursued and if a subsequent re-check of available databases
                                     provides no additional lead information, the case is recommended for
                                     closure.

                           When the ICE case agents conclude cases, they prepare closing ROIs in TECS
                           and submit them to their supervisors. The supervisors review the case agents’
                           reports and, if they agree with their conclusions, forward the ROIs to CEU
                           HQ. 32

                           Field Processing of CEU Leads

                           We visited five ICE field offices to examine files and interview ICE officials.
                           Based on a detailed review of leads assigned to the field, 76 of the 128 cases
                           (59 percent) had been closed. 33 ICE field offices took, on average, 61 days to
                           close those investigations. 34 Of the closed cases,


31
   Most cases in our sample indicated that the alien had applied for a change in immigration status or extension of current
status or stay before being contacted by an ICE agent.
32
   Although the SAC or ASAC can monitor case progress in TECS, they are not required to be involved in the case
closure process.
33
   During our review, we received case status information at three different points in time, (1) at the time we initially
received general lead status information, (2) the time we received detailed reports on leads that were sent to the field, and
(3) during our field visits. Therefore, leads that were initially listed as “Open” may have been subsequently closed
between these points in time. When we received information indicating that a lead had been closed (from our field
visits), we updated the spreadsheet we used to track these leads. Leads closed by ICE field offices we did not visit after
we received the detailed reports are not included in this count. Therefore, 76 leads is the minimum number of leads in
our sample that were closed. In fact, a CEU’s workload activity from January 6, 2004, to January 14, 2005, reports that
ICE field agents had closed 95 percent of assigned cases.
34
   See Appendix C.


                                          Review of the ICE’s Compliance Enforcement Unit

                                                          Page 14
                                •	  10 resulted in arrests;
                                •	  19 determined that the violator was in compliance;
                                •	  10 were adjusted to achieve compliance;
                                •	  21 verified that the subject had left the country;
                                •	  One identified the subject as being in another ICE field office’s area of
                                    responsibility;
                                • 	 14 were returned to CEU HQ noting that all leads had been exhausted;
                                    and
                                • 	 One subject was noted as processed for removal from the United
                                    States.

                           Due to a large number of variables in handling CEU cases in the field, we did
                           not form an opinion on whether this processing time was reasonable. For
                           example, the average 61-day timeframe to close a CEU investigation included
                           processing times for leads that were sent to ICE field offices that received a
                           high volume of leads, such as the New York field office. Both CEU HQ and
                           field office officials acknowledged that these offices were not adequately
                           staffed to investigate such a high number of leads in a timely manner. As
                           noted earlier, cases were also sent to ICE field offices that did not have
                           designated CEU agents assigned requiring that those offices investigate these
                           cases with existing resources. 35 An ICE field office official said that if the
                           initial investigation of a lead was unsuccessful, they would allow the case to
                           “go cold” and, at a later date, reinvestigate the case to try and locate the
                           subject. This would extend the time to close the case.

                           Some ICE field offices, such as the Washington, DC office, were frequently
                           directed to support other federal law enforcement agencies, such as the
                           Federal Air Marshals Service and U.S. Secret Service, thereby delaying the
                           investigation of CEU cases. Other offices had local, long-term ICE field
                           office investigative priorities that competed with CEU case investigations,
                           including marriage fraud and human rights violations.

                           Additionally, in April 2004, CEU began transmitting CEU cases to the field
                           using TECS. For most ICE field offices that were legacy INS offices, TECS
                           was a new system. Consequently, many ICE field office personnel had to
                           become proficient with TECS as well as with the other programs or databases
                           that they needed to check during the course of an investigation, such as
                           SEVIS.


35
  We noted that six of the 128 cases sent to the field in our sample were sent to ICE field offices that did not have an
assigned CEU agent.


                                          Review of the ICE’s Compliance Enforcement Unit

                                                         Page 15
Results of the Review

        Efforts to Identify Visa Violators and Overstays Result in Few

        Apprehensions 

                         The U.S. government invigorated its efforts to manage the population of non-
                         immigrants coming to the United States in the aftermath of the terrorist attacks
                         of September 11, 2001. The existing non-immigrant entry-exit control
                         system, which was never very effective, 36 was augmented with additional
                         measures intended to improve national security. These measures included
                         enhanced security background checks by DHS and DOS when an alien
                         applied for a visa; additional screening of in-bound passenger manifest data
                         against terrorist databases and watch lists; additional checks and reviews at
                         POEs, which include the collection and entry of a considerable volume of data
                         into various databases; monitoring compliance with visa terms; and,
                         identifying and apprehending visa violators. This process, which included the
                         development and deployment of US-VISIT, SEVIS, and NSEERS, was
                         implemented at considerable expense and for the specific purpose of tracking
                         the arrival, activities, and departures of non-immigrants. The newly
                         established CEU is one part of this much larger system designed to ensure that
                         non-immigrants comply with the terms and conditions of their stay in the
                         United States. In order for the system to function as intended, all of the
                         components must operate effectively.

                         The initial screening functions are preventative and seek to identify those non-
                         immigrants who should not be admitted into the United States. Once admitted
                         into the United States, various programs monitor non-immigrant compliance.
                         When compliance violations are identified, enforcement functions, including
                         those performed by CEU, must identify, locate, and apprehend violators.
                         Once apprehended, violators must be detained, adjudicated, and removed.
                         However, the data strongly suggest that this overall effort yields a small
                         number of apprehended or removed non-immigrants.


36
  See the following reports from the Department of Justice Office of the Inspector General: The Immigration and
Naturalization Service’s Automated I-94 System, Rep. No. 01-18 (August 2001) (reviewing INS subsequently abandoned
$31 million effort to acquire an automated system to track entry and exit reports); [INS] Monitoring of Nonimmigrant
Overstays, Rep. No. I-97-08 (September 1997) (finding INS often could not identify overstays and did not have an
effective enforcement strategy to apprehend overstays); Follow-Up Report on INS Efforts To Improve The Control of
Nonimmigrant Overstays, Rep. No. I-2002-006 (April 2002) (reporting that departure records still were incomplete and
INS failed to ensure airline production of accurate and complete records).


                                       Review of the ICE’s Compliance Enforcement Unit

                                                      Page 16
                           Between January 2004 and January 2005, CEU received 301,046 leads
                           (potential visa violator/overstays) from US-VISIT, SEVIS, NSEERS, and
                           DOS (visa revocations). CEU processed 142,816 (47 percent) of these leads.
                           The other 158,230 leads (53 percent) had not been processed and were
                           pending with CEU, either assigned to an analyst or waiting to be assigned to
                           an analyst.

                           With respect to the leads CEU had finished processing, 138,652 were closed
                           because CEU determined the alien had left the United States, was “in status,”
                           or no address information was available to make an apprehension likely. CEU
                           referred 4,164 leads to ICE field offices for investigation. These referred
                           leads resulted in 671 apprehensions.

                           Despite the considerable expenditure of time and resources and the
                           government’s emphasis on controlling U.S. borders, the non-immigrant entry-
                           exit control system has not significantly improved DHS’s ability to manage
                           the non-immigrant population. A DOJ study estimated that only 13 percent of
                           non-detained aliens were removed after apprehension, completion of
                           immigration proceedings, and issuance of a final order of removal. 37
                           Applying this percentage to the 671 apprehensions resulting from CEU leads,
                           derived from SEVIS, NSEERS, US-VISIT, and visa revocations for a one-
                           year period, suggests that the actual removal of visa violators identified by
                           CEU is miniscule. 38


         Significant Number of Leads Remain Unprocessed
                           Of the 14,495 US-VISIT, SEVIS, and NSEERS referrals we examined, 7,053
                           (49 percent) had not completed the workflow process in at least two months. 39

37
   Department of Justice Office of the Inspector General, The Immigration and Naturalization Service’s Removal of
Aliens Issued Final Orders of Removal, Rep. No. I-2003-004, 12 (February 2003). INS removed a much higher
percentage of detained aliens (92 percent), but aliens who committed only an overstay violation seem less likely to be
detained than other categories of violators.
38
   DHS reports that it removed 186,151 aliens in FY 2003, a total for all administrative reasons and operations. Office of
Immigration Statistics, Department of Homeland Security, “2003 Yearbook of Immigration Statistics,” 160 (Sept. 2004)
(Table 42). The 671 apprehensions total is based on the statistical report CEU furnished the OIG covering the period
January 2004 to January 2005. The number of apprehensions should increase as CEU continues to investigate leads that
originated during that period.
39
   For the purposes of our analysis, the workflow process begins after leads are imported into Leadtrac, as discussed
previously, and concludes when CEU HQ closes the lead without sending it to the field or when CEU HQ transmits the
lead to the field. The workflow process itself includes two subcategories, leads that have been imported into Leadtrac
and are waiting to be worked (Pending), and those that were actually being worked but had not completed the workflow
process (In Progress).


                                         Review of the ICE’s Compliance Enforcement Unit

                                                        Page 17
                            Specifically, 5,875 leads (of which 787 were designated as Priority) were
                            waiting to be processed and the remaining 1,178 were in the workflow process
                            but had not completed it at the time CEU provided us with the lead data. 40
                            This time lag is significant because the longer it takes for a lead to complete
                            the workflow process, the greater the chance for perishable locator
                            information to become obsolete, thereby reducing the chances of
                            apprehending visa violators. Although CEU has a work prioritization
                            criterion based on national threat intelligence, it receives a new list of
                            violators every week. Our concern is that many lower priority leads of
                            potential visa violators may never be processed.

                            This situation exists because CEU could not keep pace with the large volume
                            of lead referrals. In addition, not all lead referrals were actionable.
                            Consequently, we question CEU’s effectiveness in identifying, locating, and
                            apprehending potential violators.

                            Large Volume of Leads

                            The following table summarizes the status of US-VISIT, SEVIS, and
                            NSEERS leads at four selected points in time.

                                                    December         February          April            June
                                                      2003             2004            2004             2004            Total
              Leads beginning the
              workflow process                          793            6,291           5,569           1,842           14,495
              Not completed                              80            2,524           3,703            746            7,053
              Closed by CEU HQ                          691            3,751           1,865           1,067           7,374
              Assigned to Field                          22              16               1              29              68
              Total                                     793            6,291           5,569           1,842           14,495

                                    Table 1: US-VISIT, SEVIS, and NSEERS Lead Status 41




40
   For the 787 Priority leads waiting to be processed, the first step in this process took at least four months for 382 leads, 

three and a half months for 241 leads, and two months for 164 leads. For the 5,088 Non-Priority leads waiting to be 

processed, the first step in this process took at least six months for 80 leads, four months for 1,649 leads, and two months

for 3,359 leads.

41
   Data from the early December 2003, February 2004, and April 2004 weekly test periods were received on June 15, 

2004. Data for the June 2004 weekly test period was received on September 17, 2004. In both instances, the status of 

the leads on the date we received the sample data, June 15, 2004, and September 17, 2004, respectively, was the basis for 

our analysis. 



                                           Review of the ICE’s Compliance Enforcement Unit

                                                           Page 18
           Of the 14,495 US-VISIT, SEVIS, and NSEERS referrals that were received,
           7,053 leads (49 percent) were not completed. A significant number and
           percentage of leads remained incomplete for an extended period of time.

           The following table summarizes the status of biometric referral and visa
           revocation leads CEU received between December 1, 2003, through July 20,
           2004.


                                          Biometric                Visa
                                          Referrals             Revocation        Total
Leads beginning the workflow
process                                        68                   344           412
Not completed                                   8                    97           105
Closed by CEU HQ                               41                   204           245
Assigned to Field                              19                    43            62
Total                                          68                   344           412

                    Table 2: Biometric Referral and Visa Revocation Lead Status

           For biometric referral and visa revocation leads, 105 of the 412 leads (25
           percent) that were received had not been completed. As of July 22, 2004, this
           included:

               • 	 Two biometric referrals and seven visa revocation referrals that CEU
                   received four months earlier;

               • 	 Twenty-six visa revocation referrals that CEU received three months
                   earlier;

               • 	 Twenty-one visa revocation referrals that CEU received two months
                   earlier;

               • 	 Nine visa revocation referrals that CEU received a month earlier, and

               • 	 Six biometric referrals and 34 visa revocation referrals that CEU had
                   received within the same month.

           Not all leads are actionable




                          Review of the ICE’s Compliance Enforcement Unit

                                        Page 19
                             Based on our interviews with CEU and US-VISIT program officials as well as
                             our analysis of the processing of SEVIS and Visa Revocations leads,
                             incomplete or inaccurate data is being referred to CEU.

                             US-VISIT referrals are based on a list of unconfirmed overstay records
                             generated weekly from Customs and Border Protection’s (CBP) Arrival and
                             Departure Information System (ADIS). 42 These unconfirmed overstay
                             records are a result of comparing expired arrival records to departure records.
                             When there are no matching records, subject aliens are considered
                             unconfirmed overstays in ADIS and are presumed to be illegally present in the
                             United States. US-VISIT program officials acknowledged that a large
                             percentage of unconfirmed overstay records identified in ADIS are a result of
                             incomplete or inaccurate data. According to an internal US-VISIT
                             memorandum, dated May 5, 2004:

                                     “From 5 January 2004 through 22 April 2004, ADIS provided
                                     approximately 60,000 unconfirmed overstay records to ICE CEU. Of
                                     the approximately 18,000 records that were processed by the CEU,
                                     only 40 were found to be sufficient for assignment to the field. To
                                     date no arrests have resulted from these leads.”

                             In the June 2004 test period the US-VISIT office referred 8,683 leads to CEU,
                             however, only 712 (8.2 percent) were imported into Leadtrac. A CEU HQ
                             official responded to our inquiry for an explanation that due to the excessive
                             volume of records and the data integrity issues from leads received from US
                             VISIT, the majority of these leads are not put into Leadtrac.

                             Critical to ADIS’ ability to match records is the accuracy of the data and the
                             record matching criteria programmed into the system. A January 2005 ADIS
                             Data Quality report lists capturing sufficient data at the POE, ensuring carriers
                             are providing accurate manifests, and minimizing typographical errors as
                             priorities for greater ADIS accuracy. According to ICE agents in field offices
                             we visited, the data quality of NSEERS and US-VISIT leads is problematic
                             because CBP inspectors fail to collect the necessary information to track down
                             overstays or input incorrect information into border systems due to pressures
                             to speed up POE processing. Highlighting the need to ensure adequate
                             information is collected at the time an alien enters the United States was an
                             example shared by an ICE field office official. This official said that one case
                             they received involved an alien whose address was listed as a “Hyatt” in the
                             San Francisco area. There are six Hyatt hotels in the San Francisco area.

42
     See Appendix E for a description of support systems.


                                           Review of the ICE’s Compliance Enforcement Unit

                                                            Page 20
                          Additionally, ADIS data is received after being exchanged with several other
                          electronic systems, including systems used by the commercial carriers. As a
                          result, errors can occur as data is transferred between systems. This can cause
                          incomplete or inaccurate data being populated into ADIS, thereby minimizing
                          the probability of matching inbound and outbound data. Finally, effective
                          record matching criteria directly affects how successfully ADIS is in
                          identifying incoming and outgoing passengers. According to the US-VISIT
                          program office, an enhanced version of ADIS’s record matching criteria is
                          being tested. 43

                          Further, ADIS receives more arrival records than departure records. Two
                          reasons given for this is that POE inspection officials do not verify departures
                          and ADIS only addresses air and sea travel, not land travel through land
                          POEs. Additionally, although ADIS stores entry, exit, and status management
                          data captured by some legacy systems, it does not interface with the Non-
                          Immigrant Information System (NIIS) or contain all of the departure
                          information found in the Advance Passenger Information (API) departure
                          records in TECS.

                          Consequently, until data quality enhancements are full implemented, record
                          matching criteria are optimized, the “Exit” portion of the US-VISIT “Entry-
                          Exit” system is fully developed and implemented at all POEs, and ADIS is
                          integrated with all systems that track arrival and departure records, a
                          significant amount of CEU’s limited resources will continue to be spent on
                          investigating potential visa violators who have, in fact, already left the
                          country.

                          The US-VISIT program office and CEU have recognized this situation and
                          have suggested several ways to address it. Some recommendations include
                          establishing a predictive analysis capability to help identify “true”
                          unconfirmed overstays, establish a data assurance unit, and further examine
                          the causes for incomplete departure data in ADIS.

                          SEVIS leads are generated based on records that school and university
                          officials terminate. On a weekly basis, the SEVP office extracts all the
                          records that have been terminated since the last extraction and transmits that
                          data to CEU. ICE field agents from different SAC offices expressed concern


43
  Gender information is currently not included as a field in the ADIS matching algorithm. However, this information is
often used to evaluate possible false positives or false negatives within ADIS.


                                        Review of the ICE’s Compliance Enforcement Unit

                                                       Page 21
that SEVIS access by school officials would result in inaccurate and outdated
SEVIS records, thereby resulting in extra investigative work.

The fact that aliens have up to five months to apply for reinstatement after
their SEVIS record is terminated means that compliance enforcement action
may be delayed or even unnecessary because a SEVIS violation does not
necessarily constitute an immigration violation. Although students can take
this opportunity to evade federal authorities, until a cause for removal is
established, the reinstatement of an alien’s student status is primarily an
immigration services issue.

As mentioned earlier, the SEVP office does not review terminated leads
before they are sent to CEU for processing. Only after CEU has completed its
initial processing does the SEVP review take place. Consequently, CEU’s
limited resources are spent processing SEVIS violators whose records may
have been improperly terminated or who are in the process of being reinstated.
SEVP officials said that this review sequence was established because the
SEVP office did not have the staff to evaluate terminated records before
sending them to CEU.

Since SEVP is part of ICE, ICE could reverse the SEVP review process and
require SEVP to perform at least a cursory review of terminated leads before
they are referred to CEU. This modification would reduce the amount of time
CEU spends reviewing improper SEVIS lead referrals.

Finally, visa revocation leads were not always actionable. Before the
December 2004 passage of the National Intelligence Reform Act of 2004, a
lawfully admitted alien in possession of a revoked visa had not necessarily
committed an immigration violation. Therefore, unless it was established that
the violator was not in the country, CEU’s limited resources were expended to
investigate visa revocation leads to determine whether the alien was in
violation of any immigration laws. Now that all visa revocation leads are
actionable, ICE field agents can take immediate action on visa violators who
they locate.

We recommend that the Assistant Secretary for Immigration and Customs
Enforcement:

Recommendation 1: Ensure that data quality issues are addressed with
officials from the various lead referral systems, and that validity checks are
performed to increase the number of “actionable” leads referred to CEU.



            Review of the ICE’s Compliance Enforcement Unit

                          Page 22
        Leads Are Not Processed in a Timely Manner
                         Of those leads that were closed, CEU HQ does not process all received
                         violator leads in a timely manner nor did they have specific processing goals.
                         Based on our 10 percent testing, it took CEU HQ an overall average of 47
                         days to close leads after they were received from source systems. 44 Leads that
                         on average took longer than 47 days to process included:

                             •    SEVIS leads that took on average 78 days to close,

                             •    Visa Revocations leads that took on average 51 days to close, and

                             •    NSEERS leads that took on average 49 days to close.

                         Delays in processing leads resulted from CEU HQ’s vague performance
                         measures and inefficiencies in the workflow process.

                         Vague performance measures

                         Even if only “actionable” leads were referred to CEU, there is no indication
                         that CEU could keep pace with such a refined caseload based on the time that
                         it took a contract specialist to process a lead, the number of leads to be
                         processed, and the number of contract personnel available. Based on a review
                         of CEU’s workload activity from January 6, 2004, to January 14, 2005, the
                         average number of leads CEU received per week from all sources was 5,789.
                         The average number of leads closed by CEU HQ per week was 2,666 and the
                         average number of leads assigned to ICE field offices was 80 per week.
                         Consequently, 47 percent of CEU’s weekly caseload is being closed or sent to
                         the field. Therefore, staffing adjustments or enhanced processes are needed to
                         address these workload demands.

                         The CEU operation is supported by a fixed labor rate contract with. Since a
                         fixed rate contract does not provide the contractor with incentives to
                         maximize efficiency, performance measures are needed to evaluate whether
                         the contractor is working efficiently and to determine if resource levels are
                         adequate. A CEU official said that contract performance measures, regarding
                         the time to process leads from source systems, are vague and that CEU
44
  See Appendix B. These timeframe are for leads that were closed by CEU HQ without being sent to an ICE field
office. For similar timeframes for leads that were sent to the field, refer to Appendix C.


                                       Review of the ICE’s Compliance Enforcement Unit

                                                     Page 23
                          primarily monitors the numbers of leads processed per month by the
                          contractor. According to the Statement of Work within the Blanket Purchase
                          Agreement (BPA) states that the contractor is prepared to incrementally offer
                          as required contract labor resources in support of this project in quantities
                          needed to support the project and provide, where possible, volume
                          discounts. 45 Nevertheless, additional contractor staff has not been added.
                          Consequently, until a workflow analysis is performed, CEU is unable to
                          accurately determine whether existing resources are working efficiently or if
                          additional staff is needed to keep pace with the volume of leads referred to
                          CEU.

                          Inefficiencies Within the CEU HQ Process

                          We identified significant inefficiencies within the CEU HQ workflow process
                          and several points in the CEU workflow process in which unexplained delays
                          occurred. 46 These inefficiencies can provide visa violators more time to avoid
                          apprehension because important data in the violator leads, especially address
                          information of the alien, are perishable.

                          While CEU HQ took an average of 47 days to close all leads after they were
                          received from source systems, the most significant process delay was the
                          average of 25 days between the time the leads were imported into Leadtrac
                          and the time they were assigned to the contract analysts for research. Given
                          that, on average, it only took an contract analyst 19 days to research and
                          forward leads to CEU personnel for review and disposition, the 25 day delay
                          in assigning the lead to the contract analyst after importation into Leadtrac is
                          significant to the overall processing time. According to the BPA’s scope of
                          work, CEU’s SOP, and processing data fields in Leadtrac, the contract
                          personnel are responsible for importing leads into Leadtrac, assigning them to
                          a contract analyst, and forwarding the resultant information to CEU
                          permanent staff for lead disposition. According to CEU’s SOP for “Violator
                          Lead Processing”, the “contract team leader will assign all Priority leads
                          immediately after importation to a validation team.”

                          The time it took contractor staff to perform this step varied by source system.
                          It took an average of 58 days to assign the 26 SEVIS leads to the contract
                          analysts. 47 CEU HQ officials could not explain why this step took almost two

45
   The BPA for FY 2005 has an estimated value of $4,020,130.80, with incremental funding of $902,532.70.
46
   Most internal processing date fields in CEU's Leadtrac system were blank. Therefore, we could only evaluate certain
steps in the process. Since most of the leads in our sample were Priority or national security leads, the processing
timelines reflect the most expeditious lead processing. A complete description of our analysis is in Appendices B and C.
47
   See Appendix B.


                                         Review of the ICE’s Compliance Enforcement Unit

                                                        Page 24
          months to complete because workflow processing timeframes were not
          monitored.

          There were also significant delays in assigning NSEERS leads to the contract
          analysts. This is especially troubling because these potential violators are
          from countries that the United States has designated as national security
          concerns. For the 117 NSEERS leads in our sample, it took the contractor an
          average of 33 days to assign those leads to contract analysts after they were
          imported into Leadtrac. In addition, for the 14 NSEERS leads in our sample
          that were sent to the field, it took the contractor an average of 65 days to
          assign the leads to the contract analysts. Again, CEU HQ officials could not
          explain why the assignment process took over two months to complete,
          primarily because they did not monitor processing times for individual steps
          within the workflow process.

          The delay in accomplishing this administrative step is critical because the
          contract analysts cannot begin researching visa violator leads until they are
          assigned. These delays allow visa violators to avoid apprehension and to
          “disappear” into the U.S. population. Reducing the amount of time to assign
          leads to the contract analysts would maximize CEU’s ability to locate visa
          violators before the lead data become obsolete.

          We recommend that the Assistant Secretary for Immigration and Customs
          Enforcement:

          Recommendation 2: Assess the CEU workflow process, establish and
          closely monitor processing performance measures to ensure that CEU staff is
          working efficiently, and determine when staffing adjustments are needed to
          ensure timely processing of all violator leads.


CEU Procedures Need Improvement
          CEU policies and procedures do not include a requirement for justifying lead
          closure and are not always distributed to ICE field offices.

          No Basis for Lead Closures

          Of the 255 closed cases that we reviewed, 134 leads (53 percent) were closed
          by CEU HQ with no justification, with questionable justification, or without
          being adequately documented. Additionally, it appeared that departure



                      Review of the ICE’s Compliance Enforcement Unit

                                    Page 25
                           verifications of aliens possessing certain types of visas were not being
                           performed. 48

                               • 	 Seventy-five leads, 61 of which were NSEERS leads, were closed
                                   without any information or basis provided from the support systems
                                   checks. According to 73 leads, the alien had departed, but there was
                                   no information to support this conclusion. According to the two other
                                   leads, there was no indication that the subjects had departed the United
                                   States. Nevertheless, the leads were closed.

                               • 	 Twenty-seven leads had a questionable basis for closure. For example,
                                   leads indicated that they were reported in error but provided no further
                                   explanation. Other leads provided general information such as
                                   “Departure,” “subject has an EAD valid until 2006,” “I-129 Valid,” or
                                   “attending Howard University,” but did not specify when those entries
                                   were made or identify the sources of those statements. 49 Of the 27
                                   leads, 15 were NSEERS leads.

                               • 	 Twenty-seven leads confirmed the entry of an individual as a ship or
                                   airline crewmember, but were closed as "Not Valid - Crewmember" or
                                   "Not Valid-Lead Reported in Error." Seventeen of these leads were D
                                   1 visa holders. The remaining ten leads had B-1, B-2, or C-1 visas. 50
                                   According to applicable federal regulations, nonimmigrant
                                   crewmembers with D-1 status are exempt from reporting "to an
                                   inspecting officer of the Department of Homeland Security at any port-
                                   of entry" prior to departing the United States.51 Therefore, closing
                                   leads belonging to the 17 D-1 visa holders was appropriate. However,
                                   no similar exemptions extended to crewmembers possessing B-1, B-2,
                                   or C-1 visas. Consequently, we question why these leads were closed

48
   The 255 leads in our sample included 26 leads from SEVIS, 117 from NSEERS, 20 from visa revocations, 87 from
US-VISIT, and 5 biometric referrals. The 134 leads without verifiable information included 11 leads from SEVIS, 99
from NSEERS, 1 from visa revocations, and 23 from US-VISIT.
49
   EAD refers to an employment authorization document. I-129 refers to a petition for a nonimmigrant worker to come
to the U.S. temporarily to perform services or labor, or to receive training. Employers may also use this form to petition
for an extension of stay or change of status for an alien.
50
   A B-1 visa is issued to an alien having residence in a foreign country, for which they have no intention of abandoning
and who is visiting the United States temporarily for business or pleasure. A B-2 visa is issued to an alien having a
residence in a foreign country who will be visiting the United States temporarily for pleasure. A C-1 visa is issued to an
alien in immediate and continuous transit through the United States. The alien has to possess a common carrier ticket or
other evidence of transportation arrangements to the alien's destination; have sufficient funds to complete the transit
journey; and have permission to enter a country, other than the United States, following the transit through the United
States.
51
   Code of Federal Regulations, Title 8, Section 264.1(f)(8).


                                          Review of the ICE’s Compliance Enforcement Unit

                                                         Page 26
                              using the same justification as for those aliens possessing D-1 visas.
                              We also question whether these aliens adjusted their reason for being
                              in the United States and remained in the country after their ship or
                              airline departed the country. Finally, since all 27 leads were
                              summarily closed as "Not Valid - Crewmember" or "Not Valid-Lead
                              Reported in Error", we question whether there is any assurance that
                              any of these aliens departed the United States. Thirteen of the D-1
                              visa holders and all ten B-1, B-2, and C-1 visa holders were NSEERS
                              leads.

                       In response to examples of these leads that we provided to CEU HQ, a CEU
                       HQ official said that, in several instances, the information justifying closure
                       was not in Leadtrac. However, the CEU official provided specific departure
                       information from systems that had been checked before closing the lead.
                       Based on this additional information, the subject aliens had departed the
                       United States up to eleven months prior to the lead being closed.
                       Consequently, we question why the specific departure information was not
                       cataloged in Leadtrac at the time the lead was closed. In response to other
                       examples we provided, CEU reiterated the basis for closure (“Not Valid –
                       Crewmember”, “Not Valid-Lead Reported in Error”, “In Compliance”)
                       without providing a more detailed explanation. Therefore, we continue to
                       question the basis for closing these leads.

                       We recommend that the Assistant Secretary for Immigration and Customs
                       Enforcement:

                       Recommendation 3: Ensure that adequate justification exists for lead closure
                       and that this justification is documented.

                       Inconsistent Availability of Policies and Procedures

                       We determined that CEU policies and procedures governing ICE compliance
                       enforcement activities are distributed to ICE field offices in an ineffective
                       manner. From July 2003 to April 2004, CEU HQ distributed 13 memoranda
                       to all ICE SAC offices. 52 These memoranda covered CEU operations
                       including guidance on processing CEU violator leads, NSEERS interview
                       procedures, student violator leads, and the degree of investigative discretion
                       that ICE Special Agents can use in resolving CEU violator leads. None of the
                       ICE field offices were able to verify the receipt of all 13 memoranda. Only
                       four memoranda were available at all of the ICE field offices we visited. The

52
     See Appendix D.


                                   Review of the ICE’s Compliance Enforcement Unit

                                                 Page 27
incomplete distribution of key CEU policy memoranda could result in
inefficient or unreliable handling, closing, or reporting of CEU cases.

CEU HQ was unaware that ICE field offices had not received all documented
changes to policies and procedures on compliance enforcement activities. To
address this shortcoming, on November 18, 2004, CEU HQ said they would
compile a complete list of all policy memoranda to be re-distributed to all ICE
field offices.

Furthermore, ICE field office officials had conflicting, inconsistent views on
the degree of guidance that CEU provides in conducting compliance
enforcement investigations. Some ICE field office officials said they received
adequate, complete, and clear guidance from CEU on how to process
investigations. When CEU HQ developed new policies, the ICE field offices
received the new policy via email, CEU HQ confirmed the receipt, and
conference calls were held so that ICE field offices could address any related
questions.

Conversely, a majority of ICE field offices highlighted the lack of
consistent, available information on how to conduct CEU cases. For
example, we identified three cases where ICE field agents verified that
SEVIS violators were attending school and therefore filed closing
ROIs indicating that the violators were in compliance. However, a
subsequent SEVP office review of these cases indicated that, unless
the schools incorrectly terminated these records and were in the
process of rectifying the errors, it did not appear as if steps had been
taken to correct the SEVIS violations. According to the SEVP office,
the subjects did not have active SEVIS records and therefore still
appeared to be out of status. While the violations could have resulted
from actions outside of the SEVP office’s control, such as the student
failing to submit a request for reinstatement, these examples
emphasize the need for procedural guidance to address the students’
status in a timely and appropriate manner.

ICE field agents said that a centralized CEU resource, such as an online
information clearinghouse, would improve the dissemination of CEU
investigative SOPs. A resource containing updated CEU SOPs would also
assist ICE field offices in resolving CEU cases by providing easy access to
user manuals, “best practice” procedures, and policy directives. This
centralized resource would define which policies are currently applicable and
which were superceded by new policies. Standardized availability of
information and reports used by ICE field offices, from a centralized resource,


            Review of the ICE’s Compliance Enforcement Unit

                          Page 28
would greatly enhance the field’s ability to consistently investigate and close
CEU cases. These actions will ensure that ICE personnel who handle CEU
leads have the most current and complete policy and procedural information
available.




We recommend that the Assistant Secretary for Immigration and Customs
Enforcement:

Recommendation 4: Redistribute policy and guidance documents to ICE
field offices, consolidate current policy memoranda into a set of Standard
Operating Procedures (SOPs) for distribution to all ICE field offices, and
establish an ICE-wide resource for access to the CEU SOPs as well as other
current information regarding CEU activities.




            Review of the ICE’s Compliance Enforcement Unit

                          Page 29
Management Comments and OIG Analysis
             We issued our draft report on June 16, 2005, and met with ICE officials on
             July 13, 2005, to discuss the report. They provided us with technical
             comments and we made changes to the draft report, as appropriate. We
             received ICE’s formal written comments on September 14, 2005. Below is a
             summary of ICE’s responses to the report’s recommendations and our analysis
             of ICE’s responses.

             Recommendation 1: Ensure that data quality issues are addressed, in
             conjunction with officials from the various lead referral systems, and that
             validity checks are performed to increase the number of “actionable”
             leads referred to CEU.

             ICE said that CEU would continue to work with the NSEERS, SEVP, and US
             VISIT programs to address data quality issues and ensure that the most
             accurate, actionable information is available to CEU. ICE’s response did not
             address what steps will be taken to increase the number of “actionable” leads
             from Department of State (DOS).

             According to ICE, SEVP and US-VISIT have taken steps to strengthen system
             interfaces to reduce the number of non-actionable leads reviewed by CEU.
             However, specific examples of the steps taken were not provided. Further,
             ICE stated that until US-VISIT’s exit component is fully deployed, CEU will
             continue to receive non-actionable unconfirmed overstay leads from US
             VISIT but efforts to mitigate this problem will be addressed by US-VISIT’s
             Data Integrity Group. US-VISIT created the Data Integrity Group to address
             data integrity issues and identify valid overstay leads for investigative action.
             However, we are not clear if the Data Integrity Group is actually serving to
             identify valid leads generated by the US-VISIT or if it is only prioritizing
             leads before forwarding them to CEU.

             ICE’s actions are responsive to this recommendation but we require further
             clarification to explain what steps are being taken to increase the number of
             “actionable” leads from DOS, describe the specific steps taken by SEVP and
             US-VISIT to increase the number of actionable leads referred to CEU, and
             identify what specific action US-VISIT’s Data Integrity Group is taking to
             identify actionable US-VISIT leads. Please provide us this additional
             information regarding this recommendation.

             Recommendation 1 – Resolved - Open



                         Review of the ICE’s Compliance Enforcement Unit

                                       Page 30
Recommendation 2: Assess the CEU workflow process, establish and
closely monitor processing performance measures to ensure that CEU
staff is working efficiently, and determine when staffing adjustments are
needed to ensure timely processing of all violator leads.

ICE stated that CEU has refined how it prioritizes leads that pose the greatest
potential threat to national security and public safety. We agree with this
process but we need to clarify that our analysis of the workflow process was
based on leads already closed by CEU, most of which were designed as
“Priority leads”, the highest priority designation used by CEU at the time of
our test sampling. The project manger overseeing the contract has taken steps
to monitor and improve employee performance. CEU will make staffing
adjustments to address increased workloads by adding additional research
analysts and when necessary, may use detailed ICE investigators. This will
facilitate research of additional leads. CEU has a SEVP liaison assigned to
review SEVP leads before they are transmitted to the field for investigation.

ICE’s actions meet the requirements of this recommendation. Therefore, we
are closing this recommendation and no further action is required.

Recommendation 2 – Resolved - Closed

Recommendation 3: Ensure that adequate justification exists for lead closure
and that this justification is documented.

ICE stated that it discovered that a major contributor to this problem was that
several large groups of leads that were batch closed were missing closure
justifications. CEU has addressed this deficiency. CEU is in the process of
upgrading the Leadtrac database to better account for each lead, and will
ensure enough information is contained in the Leadtrac record to support the
closure reason.

ICE’s actions meet the requirements of this recommendation. Therefore, we
are closing this recommendation and no further action is required.

Recommendation 3 – Resolved - Closed

Recommendation 4: Redistribute policy and guidance documents to ICE field
offices, consolidate current policy memoranda into a set of Standard
Operating Procedures (SOPs) for distribution to all ICE field offices, and
establish an ICE-wide resource for access to the CEU SOPs as well as other
current information regarding CEU activities.



            Review of the ICE’s Compliance Enforcement Unit

                          Page 31
ICE stated that CEU policy and guidance memoranda are either currently
available through ICE’s proprietary website or are in the process of being
added. Additionally, CEU will make field managers responsible for CEU
operations aware that CEU related policy memoranda are available online.
ICE also provided two agents from each SAC office with training on CEU
operations and how to access SEVIS and US-VISIT information. As many
CEU leads are sent directly to RAC offices, we believe that agents assigned to
ICE RAC offices would also benefit from this training.

ICE’s actions are responsive to this recommendation. Please inform us when
all CEU policy and guidance memoranda are available on ICE’s proprietary
website and describe the steps that ICE intends to take to provide CEU
training to agents in RAC offices

Recommendation 4 – Resolved – Open




            Review of the ICE’s Compliance Enforcement Unit

                          Page 32
                           Appendix A 

                           Compliance Enforcement Unit Workflow (updated December 21, 2004)





   SEVIS                     NSEERS                    US-VISIT                  Visa Revocation                 Biometric
                                                                                      (Dept of State)            Referrals

                                           Import Leads into LEAD-TRAC
                                    1.     Eliminate duplicate records/ individuals
                                    2.     Auto validated (data integrity check)
                                    3.     Auto prioritization
SEVIS Leads to NAILS

                                                Support Systems used for 

                                             Validation and Viability Checks 

                                                                                                         Backlog
                                                                                                        (ADIS Checks)




 ADIS, Arrival         Open and Public Records                 NIIS, Non-Immigrant         ENFORCE/IDENT                DACS,
 Departure             (Choicepoint, Autotrak, Postal          Information System          (NSEERS source)              Deportable
 Information System    address, Telephone, Governmental)                                                                Alien
 (US-VISIT source)                                                                                                      Control
                                                                 Orion Tool Utility                     NAILS           System
                              NLETS            TECS              -ENFORCE       -SITS
 CLAIMS, Computer Linked                                         -No Fly list   -“Selectee List”
 Application Information                                         -SEVIS
 Management System            Source Systems Double Check                                                  CIS, Central Index System



                  Final SEVIS                                                        Non-Viable Leads
                  Program Check
                  (TIER III)                                                                Or
                                                                                     Not Valid Leads
                                                 CEU                                        Or
  Valid & Viable                                INBOX                                Action has been taken



 NAILS weekly export
 (non-SEVIS lead)                            Field Assigned                                              Leads Closed
                                                                                                   (Removed from NAILS)


                              Violator Located              Leads
         Backlog              or Accounted for              exhausted
       (ADIS Checks)


                                         Disposition


                                             Review of the ICE’s Compliance Enforcement Unit
                                                            Page 33
                      Appendix B
                      Average and Mean of Leads Closed by CEU HQ - Not Sent to ICE Field Offices




                                              ICE CEU HQ Office
                                      Average CEU Processing Time Frames
                                                        Days
                                                      between
                                           Days to    contract
                                         assign lead analyst and    Days                             Questionable
                             Number in to contract      CEU      required to            No basis      Basis for
                             test sample analyst      Decision      close              for closure     Closure
SEVIS                             26         58          11          78                      8            3
NSEERS                           117         33           7          49                     60           38
Visa Revocations                  20          7          49          51                     0             1
USVISIT                           87         27          11          42                      6           17
Biometric Referrals                5          0          16          16                     0             0

Total/Average                    255           25             19             47          
 74            59         

Median                                         27             11             49


                                             ICE CEU HQ Office
                                        Median Processing Time Frames
                                                        Days
                                                      between
                                           Days to    contract
                                         assign lead analyst and    Days                             Questionable
                             Number in to contract      CEU      required to            No basis      Basis for
                             test sample analyst       Review       close              for closure     Closure
SEVIS                             26         64           6          80                      8            3
NSEERS                           117         22           5          43                     60           38
Visa Revocations                  20          3          44          53                     0             1
USVISIT                           87         20           7          35                      6           17
Biometric Referrals                5          0          15          15                     0             0

Total/Average of Medians         255           22             15             45            74            59         

Median of Medians                              20              7             43




                                   Review of the ICE’s Compliance Enforcement Unit 

                                                 Page 34 

                      Appendix C
                      Average and Median of Leads Sent to ICE Field Offices




                                               ICE Field Office
                                      Average Investigative Time Frames
                                                               Days
                                                              between
                                       Total      Days to assignment
                             Number closed of assign lead to contract Days for Total days
                              in test   test    to contract analyst and SAC to      required to
     Source System           sample sample        analyst      SAC      investigate    close
SEVIS                           31       22          4           37         73          114
NSEERS                          14        9         65           14         51          132
Visa Revocations                41       17          3           20         57           74
USVISIT                         23       18         27           23         36           85
Biometric Referrals             19       10         10           17         89          105

Total/Average of Medians        128        76      
      22             22            61   102       

Median                                                    10             20            57   105       



                                                 ICE Field Office
                                      Median Field Investigative Time Frames
                                                               Days
                                                              between
                                       Total      Days to assignment
                             Number closed of assign lead to contract Days for Total days
                              in test   test    to contract analyst and SAC to required to
     Source System           sample sample        analyst      SAC       investigate close
SEVIS                           31       22          1           33          50       89
NSEERS                          14        9         73           12          41       125
Visa Revocations                41       17          1           17          63       73
USVISIT                         23       18          1           19          27       70
Biometric Referrals             19       10          0           20          81       107

Total/Average of Medians        128         76     
      15            20             52   93    

Median of Medians                                          1            19             50   89    





                                   Review of the ICE’s Compliance Enforcement Unit 


                                                 Page 35 

                      Appendix D
                      ICE Memoranda Distribution Matrix - June 2003 to May 2004




                                                  Field    Field    Field    Field    Field
   Date                   Subject                 Office A Office B Office C Office D Office E
           Use of TECS II in Compliance
4/9/2004                                              X        X        X        X        X
           Enforcement Cases
           Policy and Procedures for Notification
4/8/2004   of NSEERs Special Registration             X        X        X        X        X
           Interviews
          NSEERS Special Registration
3/12/2004 Interviews                                        X        X          X

1/7/2004   US-VISIT Rollout                                 X        X          X      X
           National Security Entry Exit
12/10/2003 Registration System (NSEERS) Policy              X        X          X      X   X
           Update
           Changes to the National Security Entry
11/28/2003 Exit Registration System (NSEERS)                X        X          X      X   X

           Notification of Changes to National
           Security Entry Exit Registration
10/17/2003                                                  X        X          X      X
           System (NSEERS) Interview
           Procedures
           Field Agent Discretion in Compliance
9/16/2003 Enforcement                                       X        X                 X

          Supplemental Guidance of Action Lead
8/13/2003 Referral (ALR)                                             X                 X   X

          Additional Guidance of Special
          Registrations, or National Security
7/17/2003 Entry Exit Registration System                             X          X      X   X
          (NSEERS) Discretionary Waivers

           Student Violators Leads (on DHS
Undated    Letterhead)                                               X                 X   X

Undated    August 1, 2003 Deadline for SEVIS                                           X
           Policy Update to National Security
           Entry Exit Registration System
Undated    (NSEERS) Interview Procedures                             X          X      X
           (Supercedes September 5, 2002 SOP)




                                   Review of the ICE’s Compliance Enforcement Unit 


                                                 Page 36

Appendix E
Support Systems




When leads are generated through the SEVIS, NSEERS, US-VISIT, visa
revocation or biometric referral processes, CEU uses 14 different support
systems to validate information provided in the leads and to collect additional
information that will assist ICE field agents in locating the visa violators.
CEU uses these support systems to find recent addresses, name variations, and
the most current, up-to-date, information on aliens who have entered the
United States with a visa.

    1. 	 Arrival and Departure Information System (ADIS) – matches arrival
         and departure information for reporting purposes. ADIS sends all
         available arrival information on students to SEVIS, enabling ICE to
         notify the schools that a new foreign student has arrived and should be
         at their school within 30 days. In practice, the arrival and departure
         records are based on passenger manifest information that carriers
         transmit to CBP.

    2. 	 Consular Lookout and Support System (CLASS) - the DOS name-
         checking system for visa and passport applications. Instituted in
         March 1991, CLASS is accessed by DOS diplomatic posts to check
         the names of all passport and visa applicants. CLASS contains a visa
         database with the names of aliens who have applied for a U.S. visa,
         including aliens who were refused visas. DOS consular posts must
         check each visa applicant’s name through CLASS before a visa is
         issued.

    3. 	 Central Index System (CIS) - the master records management system
         that collects and distributes automated biographical information on
         aliens. The system contains the physical status of alien files (A-file)
         and provides tracking capability for files that are transferred to various
         INS locations. CIS provides automated information regarding certain
         classes of aliens and identifies the location of an alien’s A-file. CIS
         also provides information for Federal and state entitlement programs
         and is a source of data for many DHS mission functions.

    4. 	 Computer Linked Application Information Management System
         (CLAIMS) - provides the information systems infrastructure to support
         the processing and maintenance of applications and petitions for
         immigration benefits.




             Review of the ICE’s Compliance Enforcement Unit

                           Page 37
Appendix E
Support Systems




    5. 	 Deportable Alien Control System (DACS) - a mainframe system that
         tracks the status of illegal aliens under removal proceedings, including
         detention status. The system provides an automated database that
         assists in the deportation or detention of aliens in accordance with
         immigration and nationality laws. It also serves as a docket and
         control system concerning the status and/or disposition of deportable
         aliens. Information is maintained on the alien’s entry and departure
         status until the alien is either granted a stay, deported, or relief is
         granted. If the alien is detained or is jailed for criminal actions,
         additional information pertinent to the offense is maintained.

    6. 	 Enforcement Case Tracking System (ENFORCE) - an event-based
         case management system that is used to track and manage the
         reporting of enforcement cases. It integrates and supports functions
         including alien processing, biometric identification, allegations and
         charges, preparation and printing of appropriate forms, data repository,
         and interface with the national database of enforcement events.
         ENFORCE supports alien apprehension processing for both Voluntary
         Return and Notice to Appear actions

    7. 	 National Automated Immigration Lookout System II (NAILS) - a
         central mainframe computer system that identifies past immigration
         violators who may be inadmissible to the United States. NAILS II
         facilitates the inspection and investigation processes by providing
         retrieval of biographical or case data on individuals who should not be
         permitted to enter the United States.

    8. 	 National Crime Information Center (NCIC) - a nationwide information
         system that supports U.S. criminal justice agencies (local, state, and
         federal). Established in 1967, NCIC is accessible by U.S. law
         enforcement agencies around the country, with services extending to
         the patrol car and mobile officer. NCIC allows users to search the
         active databases and access the system’s historical data. The system’s
         capabilities include identifying persons convicted of a crime in the
         United States; a mug shot file; records of individuals who are
         convicted sexual offenders or violent sexual predators; and, an index
         of individuals incarcerated in the federal prison system.

    9. NetLeads –a database program, developed for the former INS, which
       performs multiple system checks simultaneously.



             Review of the ICE’s Compliance Enforcement Unit

                           Page 38
Appendix E
Support Systems




    10. Non-Immigrant Information System (NIIS) - provides information on
        arrivals and departures, to support the controlled admission of non-
        immigrants to the United States through ports of entry, and to track
        non-immigrant departures for identifying potential overstays. NIIS
        provides automation support for tracking non-immigrant foreign
        nationals’ arrivals and departures.

    11. Open Records (Autotrack/Choicepoint) – private companies construct
        databases of public and private information on individuals. This
        information includes credit card, child support, housing, and
        healthcare history. The private companies sell access to their
        databases.

    12. Treasury Enforcement Communication System (TECS) - the principal
        information system supporting the border management and law
        enforcement mission of CBP and other federal law enforcement
        agencies. TECS screens incoming persons, vehicles, vessels, and
        aircraft; provides investigative and prosecution support for agents;
        tracks resource utilization for the Office of Investigations; tracks
        seized assets, fines, penalties and legal cases; identifies and analyzes
        patterned behavior for agency intelligence analysts; and provides
        logistics support.

    13. Secondary Inspection Tool (SIT) – a part of US-VISIT, SIT captures
        an individual’s initial enrollment overseas during the visa issuance by
        DOS, and the entry encounter during the individual’s inspection by
        CBP. Information available through SIT includes name, date of birth,
        dates of entry, document number, and photograph.

    14. United States Postal Service (USPS) – a federal mail delivery system,
        USPS maintains records of last known addresses and current addresses
        for all individuals living in the United States.




             Review of the ICE’s Compliance Enforcement Unit

                           Page 39
                           Appendix F
                           Purpose, Scope, and Methodology




                           We conducted this review to evaluate the effectiveness of CEU in identifying,
                           locating, and apprehending aliens who have violated the purpose and terms of
                           their admission into the United States. Specifically, we examined the systems,
                           processes, performance measures, and procedures used to accomplish this
                           mission. We interviewed CEU HQ, NSEERS, SEVIS, US-VISIT, and DOS
                           program staff. We collected and analyzed organizational, procedural and
                           statistical information. We examined how NSEERS, SEVIS, US-VISIT, visa
                           revocations, and biometric referral data is used in this process.

                           We examined CEU data from all source systems to assess the volume of leads
                           generated by these systems and determined the status of leads in the CEU
                           process. Specifically, we analyzed data from the NSEERS, SEVIS, and US
                           VISIT source systems at four different points. The four time periods
                           representing these points, which we judgmentally selected for testing, were
                           from early December 2003 and early February, April, and June 2004. 53 Due
                           to a relatively low number of visa revocation and biometric referral leads, and
                           because these leads are sent to CEU as they are identified, we requested all
                           leads originating from these two source systems since December 1, 2003.

                           Using the lead data CEU provided from the NSEERS, SEVIS, and US-VISIT
                           source systems for the February, April and June 2004 time periods, and all
                           visa revocation and biometric referral leads provided, we judgmentally
                           determined that 10 percent of the leads closed by CEU HQ would constitute a
                           reasonable sample to perform a more detailed analysis of internal workflow
                           processing. We used appropriate statistical techniques to randomly select our
                           10 percent sample of closed leads. We randomly sampled violator leads from
                           each source system, but these results cannot be projected to the universe of
                           CEU violator leads. With this information, we (1) established a timeline of
                           processing activities; (2) identified steps in the process that took a significant
                           amount of time to complete or steps that could be taken to close more leads at
                           the CEU HQ level; (3) identified any additional or redundant steps in the



53
   December 1, 2003, represents the early stages of CEU HQ operability. We intentionally selected a period when the
major contributor to the CEU workload (US-VISIT) was not providing lead information to CEU. This sample was pulled
to review the overall case workload and not for the test sampling of leads. February 1, 2004, represents the early stages
of office operability shortly after US-VISIT began referring leads to CEU. April 1, 2004, represents current office
operability, but allowed enough time for leads to be closed or sent to the field. We received the detailed sample data for
these three test periods in mid-June. We received the detailed sample data for the early June 2004 test period in mid-
September 2004.


                                         Review of the ICE’s Compliance Enforcement Unit

                                                         Page 40
                           Appendix F
                           Purpose, Scope, and Methodology




                           process; and, (4) analyzed the justification used to close leads at the CEU HQ
                           level. 54

                           We reviewed all leads sent to the field for investigation during periods we
                           selected for testing to identify CEU HQ case processing time frames and
                           determine the status of each case. For cases assigned to the ICE field offices
                           that we visited, we also examined the basis for case closures. 55

                           We performed our fieldwork between May and December 2004. Our
                           fieldwork was conducted at CEU HQ in Washington, D.C. and at ICE field
                           offices in Los Angeles, CA; New York, NY; San Francisco, CA; Santa Ana,
                           CA; and Washington, D.C. Our interviews with officials from the NSEERS,
                           SEVIS, and US-VISIT program offices took place in Washington, D.C.

                           This review was scheduled as part of our annual work plan. Our work was
                           conducted under the authority of the Inspector General Act of 1978, as
                           amended, and according to the Quality Standards for Inspections issued by the
                           President’s Council on Integrity and Efficiency.




54
   Instead of performing any further review of leads for the early December 2003 timeframe, we chose to review sample
data from the June 2004 timeframe because this was more representative of current processing timeframes and
procedures.
55
   The test sample data for the June 2004 data from SEVIS, US-VISIT, and NSEERS were received after we had
completed our field visits. Therefore, leads from this timeframe were not discussed with field office personnel. Field
offices selected were based on those that received the higher number of leads during the initial test periods we selected.




                                          Review of the ICE’s Compliance Enforcement Unit

                                                         Page 41
                      Appendix G
                      Management Response to Draft Report




                                                                     Office of the Assistant Secretary

                                                                     U.S. Department of Homeland Security
                                                                     425 I Street, NW
                                                                     Washington, DC 20536




MEMORANDUM FOR: 	             Richard Skinner
                              Inspector General
                              Department of Homeland Security

THRU:	                        Randy Beardsworth
                              Acting Under Secretary
                              Border and Transportation Security

FROM:      	                  Michael J. Garcia
                              Assistant Secretary

SUBJECT: OIG Draft Report: Review of the Immigration and Customs Enforcement’s Compliance
Enforcement Unit (CEU), ISP Draft Report 34


U.S. Immigration and Customs Enforcement (ICE) submits the following comments regarding the
Office of the Inspector General Draft Report on the subject above.

Recommendation 1: Ensure that data quality issues are addressed, in conjunction with officials
from the various lead referral systems, and that validity checks are performed to increase the number
of “actionable” leads referred to CEU.

ICE Response: CEU will continue to work with the Student and Exchange Visitor Program (SEVP)
and the United States Visitor Indicator Status Technology (US-VISIT) program to address data
quality issues and ensure that the most accurate, actionable information is available to CEU. SEVP
and US-VISIT have taken steps to strengthen system interfaces to reduce the number of non-
actionable leads reviewed by CEU. In addition, SEVP provides CEU with information on completed
data fix requests that have been approved and now reflect the corrected status in SEVIS. This action
allows CEU to close such leads, thereby saving investigative resources. Until US-VISIT is fully
deployed on exit, CEU will continue to receive


                                   Review of the ICE’s Compliance Enforcement Unit

                                                 Page 42
                       Appendix G
                       Management Response to Draft Report




non-actionable unconfirmed overstay leads from US-VISIT. To help mitigate this, US-VISIT has
created a Data Integrity Group to address data integrity issues and identify valid overstay leads for
investigative action by CEU.

CEU will also review the information received from NSEERS to determine what, if any, additional
coordination efforts can be taken to increase the number of actionable leads.

Recommendation 2: Assess the CEU workflow process, establish and closely monitor processing
performance measures to ensure that the CEU staff is working efficiently, and determine when
staffing adjustments are needed to ensure timely processing of all violators.

ICE Response: CEU utilizes its resources to identify the highest threat leads and processes those
leads for field assignment. In October 2004, CEU changed the priority criteria used to determine
which leads are worked and in what order. CEU uses a threat matrix to focus on leads that pose the
greatest potential threat to national security and public safety, does not follow the
“first in, first out” model, and may process some leads that were received after others, based on the
threat matrix. As an example of the dynamic nature of lead receipt and referral, CEU received a
biometric referral from US-VISIT on an individual wanted for the rape of a 14-year-old. CEU
received, reviewed and assigned the lead to the appropriate Special Agent in Charge (SAC) office on
the same day, due to the serious nature of the offense. As this example demonstrates, CEU does not
process a lead based on how long ago it was received, but rather, on its threat or public safety
potential.

The project manager for SRA/Orion, which contracts with CEU, has instituted several measures to
track the performance of the research analysts. Each analyst is required to review a minimum of 20
25 leads per day. The number of leads reviewed is tracked by the project manager and periodically
reviewed by CEU staff. In addition, CEU will make staffing adjustments when necessary. CEU has
brought additional detailed agents to work when warranted, and is planning to increase its number of
research analysts. This will facilitate research of additional leads.

The report also suggests that SEVP review leads prior to referral to CEU. SEVP is a program office;
CEU is responsible for the enforcement of SEVIS and as such is responsible for reviewing
terminated records to determine if there is a violation and if it warrants field assignment. SEVP has
assigned a liaison to CEU to assist in the review process prior to the assignment of leads to the field
for investigation.

Recommendation 3: Ensure that adequate justification exists for lead closure and that this
justification is documented.

ICE Response: One of the main points raised in this report is that 53 percent of the 255 leads
reviewed did not have a reason for closure. CEU previously identified this as a problem in
May 2004 and adjusted the process so that a lead could not be closed without indicating a reason for
closure. Additionally, CEU discovered several large groups of leads that were batch closed and
missing closure reasons. CEU has addressed this deficiency. CEU is in the process of upgrading the
Leadtrac database to better account for each lead, and will ensure enough information is contained in
the Leadtrac record to support the closure reason.



                                    Review of the ICE’s Compliance Enforcement Unit

                                                  Page 43
                      Appendix G
                      Management Response to Draft Report




Recommendation 4: Redistribute policy and guidance documents to ICE field offices, consolidate
current policy memos into a set of SOP’s for distribution to all ICE field offices, and establish an
ICE wide resource for access to the CEU SOP.

ICE Response: ICE Office of Investigations (OI) policy and guidance memoranda are available to
the field on the OI proprietary Web site. All memoranda related to CEU field operations are on this
Web site or in the process of being added. CEU again will ensure that field managers responsible
for CEU operations are aware that these memoranda are available online. In addition to policy
memoranda, Headquarters (HQ) CEU provides information and guidance to field offices via e-mail,
and specific case instructions are provided in the Report of Investigation sent to the field. CEU
cases are administrative immigration investigations and do not require any additional standard
operating procedures (SOPs) from CEU. HQ CEU SOPs are for HQ processing and not applicable
to field operations. Recently, CEU arranged for two agents from each SAC office to receive training
on CEU operations and how to access SEVIS and
US-VISIT information.




                                   Review of the ICE’s Compliance Enforcement Unit

                                                 Page 44
Appendix H
Major Contributors to this Report




David Hiles, Chief Inspector, Department of Homeland Security,
Office of Inspections and Special Reviews

Moises Dugan, Senior Inspector, Department of Homeland Security,
Office of Inspections and Special Reviews

Andrew Hoffman, Inspector, Department of Homeland Security,
Office of Inspections and Special Reviews

Megan McNeely, Inspector, Department of Homeland Security,
Office of Inspections and Special Reviews




              Review of the ICE’s Compliance Enforcement Unit

                             Page 45
Appendix I
Report Distribution




Department of Homeland Security

Secretary
Deputy Secretary
Chief of Staff
General Counsel
Executive Secretariat
Under Secretary, Border and Transportation Security
Assistant Secretary, Immigration and Customs Enforcement
DHS Chief Security Officer
DHS Audit Liaison
BTS Audit Liaison
ICE Audit Liaison

Office of Management and Budget

Chief, Homeland Security Branch
DHS Program Examiner

Congress

Congressional Oversight and Appropriations Committees as Appropriate




              Review of the ICE’s Compliance Enforcement Unit

                            Page 46
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG
web site at www.dhs.gov/oig.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind
of criminal or noncriminal misconduct relative to department programs or
operations, call the OIG Hotline at 1-800-323-8603; write to Department of
Homeland Security, Washington, DC 20528, Attn: Office of Inspector
General, Investigations Division – Hotline. The OIG seeks to protect the
identity of each writer and caller.
